CERTIFICATE OF SERVICE

I, Judy Harmon certify that I have served a correct copy of
the following:

PETITION FOR WRIT OF CERTIORARI, FINANCIAL

AFFIDAVIT.
This was mailed to the following address:

Supreme Court Office of

the Clerk, Supureme Court of the United States Washington, D.C
20543 and to opposing counsel, U.S District Attorney Chad Doleac
900 FJefferson Ave Oxford, MS 38655. It has been placed in the
Prison mailbox in the Danbury Federal Prison Camp Mail Depository
on the 16th day of July, 2020.

reg#17940-042
33 1/2 Pembroke Road
Danbury, CT 06811

In accordance with the Prison Mail Rox Rule (Houston v Lack 487
U.S 266 (1988), this is deemed filed upon placement in the Prison
Mailroom.

CERTIFICATE OF SERVICE

I certify that I have served a correct copy of the following:

MOTION TO PROCEED IN FORMA PAUPERIS, WRIT OF CERTIORARI,APPENDIX
upon the follwoing address: SUPREME COURT 1 1st Street, N.E ,
Washington D.C

20543. It has been placed in the Prison mailbox in

the Danbury Federal Prison Camp Mail Depository on the 22nd day of
June, 2020.

In accordance with the Prison Mail Box Rule (Houston v Lack 487
U.S 266 (1988), this is deemed filed upon placement in the Prison
Mailroom.

I

